                OFFICE OF INSPECTOR GENERAL

 FINANCIAL MANAGEMENT SYSTEM &
     COMPLIANCE EVALUATION

                                    ON SELECTED
                                   NEA GRANTS TO

            Philadelphia Orchestra Association
                             Philadelphia, Pennsylvania

                          REPORT NO. SCE-13-02
                                      March 27, 2013




                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION
BACKGROUND
Founded in 1900, the Philadelphia Orchestra Association (the "Orchestra") has been
committed to the exploration of classical music and repertoire. The Orchestra continues
to develop programs that resonate with contemporary audiences. The Orchestra also
focuses on inspiring the future while transforming its tradition of education, and seeks to
not simply sustain the highest level of artistic quality, but to challenge and exceed that
level by creating powerful musical experiences for audiences at home and around the
world.

OBJECTIVE AND SCOPE
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the United States Office of Management
and Budget (OMB), and NEA’s General Terms and Conditions for Grants and
Cooperative Agreements to Organizations (General Terms). In addition, we evaluated
the recipient’s compliance with OMB and NEA guidance for the management of the
American Reinvestment and Recovery Act of 2009 (Recovery Act) funding.

The Recovery Act provided $50 million to NEA to be distributed in direct grants to fund
arts projects and activities which preserve jobs in the nonprofit arts sector threatened by
declines in philanthropic and other support during the current economic downturn.
Consistent with the language in the Act, eligible projects are generally limited to salary
support and fees for artists or contracted personnel.

The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections and Evaluations, as applicable.

During the period under review, the Orchestra had eight NEA grants active with awards
totaling $502,000. We judgmentally selected and reviewed two of the eight grants in
which NEA funds had been drawn down and costs had been reported. The two grants
reviewed were Grant No. 09-3188-7361 in the amount of $50,000 and Grant No. 11-
3100-7119 in the amount of $75,000.

PRIOR AUDIT COVERAGE
NEA OIG has not issued any audit reports on Federal grants awarded to the Orchestra.
The most recent independent auditor's report on the Orchestra was for the year ended
August 31, 2011. The financial statement audit was conducted by Grant Thornton, which




                                             2
issued an unqualified (clean) opinion. The Orchestra was not subject to the audit
requirements of OMB Circular A-133.

                       RESULTS OF EVALUATION
Our evaluation concluded that the Orchestra generally complied with the financial
management system requirements established by OMB and NEA for its Recovery Act
funds awarded under Grant No. 09-3188-7361. However, the Orchestra did not maintain
personnel activity reports for staff whose salaries were charged to the Recovery Act
award.

Our evaluation also concluded that the Orchestra generally complied with the financial
management system requirements established by OMB and NEA for Grant No. 11-3100-
7119. However, we identified some areas for improvement to ensure compliance with
OMB and NEA grant requirements and to improve its management of NEA awards. The
Orchestra did not maintain personnel activity reports for staff whose salaries were
charged to the NEA award. The Orchestra did not have procedures in place to ensure that
payments would not be made to contractors or recipients that were suspended or debarred
from receiving Federal funds. In addition, the Orchestra did not have the required
Section 504 self-evaluation on file. We also noted that the Orchestra did not maintain
financial policies and procedures for the management of Federal awards.

                             INTERNAL CONTROLS

Recovery Act Grant No. 09-3188-7361
Personnel Activity Reports

The Orchestra received $50,000 in Recovery Act funds. The Orchestra complied with
OMB and NEA's financial management system and recordkeeping requirements such as
submitting quarterly reports timely and separately identifying Recovery Act funds in its
financial management system. However, the Orchestra did not maintain personnel
activity (time and effort) reports for salary costs charged to this award.

The Special Terms and Conditions for NEA Awards made under the American Recovery
and Reinvestment Act of 2009, states in part:

       ...recipients must maintain adequate time-and-effort reports (i.e., personnel
       activity reports) when charging a person's salary in whole or in part to the
       grant.

As a result of not maintaining personnel activity reports, we questioned salaries and
fringe benefits in the amount of $50,000. During the site visit, the Orchestra provided
documentation to support all of the salary costs charged to the award. Based on the
documentation provided, NEA found the costs charged to be appropriate and reasonable.
Therefore, we are not requiring any additional action for this award.


                                             3
We recommend the Orchestra develop written policies and implement procedures to
ensure that individual personnel activity reports are maintained, if required, by NEA's
General Terms.

NEA Grant No. 11-3100-7119
Personnel Activity Reports

The Orchestra did not maintain personnel activity (time and effort) reports for salaries
charged to the award. According to NEA guidance, personnel activity reports are
required for all employees whose salaries and fringe benefits are charged, in whole or in
part, to either the award or the matching funds if the award is $50,000 or more. This
requirement is mandated by OMB and is detailed in NEA's General Terms.

As a result of not maintaining personnel activity reports, we questioned $525,432.87 in
salary costs charged to the award, resulting in a potential refund of $55,184. However,
subsequent to our site visit, the Orchestra provided documentation to support all of the
salary costs charged to the award. Based on the documentation provided, NEA
determined the salary costs charged to the award are appropriate and reasonable,
therefore no refund is due.

We recommend the Orchestra develop written policies and implement procedures to
ensure that individual personnel activity reports are maintained, if required, by NEA 's
General Terms.

Debarment and Suspension Policies
The Orchestra did not have policies and procedures in place to ensure that contractors or
recipients were not debarred or suspended from receiving Federal funds prior to the
payment or award of Federal funds.

NEA General Terms states:

       You must comply with requirements regarding debarment and suspension
       in Subpart C of 2 CFR part 180, as adopted by the Arts Endowment in Title
       2 CFR, Chapter 32, Part 3254.

2 CFR Part 180, OMB Guidelines to Agencies on Government-wide Debarment and
Suspension (Non-procurement), Subpart C, Subsection 180.300, states, in part:

       You must verify that the person with whom you intend to do business is not
       excluded or disqualified. You do this by:

           (a) Checking the EPLS; or
           (b) Collecting a certification from that person if allowed by the Federal
               agency responsible for the transaction; or


                                             4
           (c) Adding a clause or condition to the covered transaction with that
               person.

We recommend the Orchestra develop written policies and implement procedures to
ensure that contractors and recipients are not debarred or suspended from receiving
Federal funds prior to the payment or award of Federal funds.

Section 504 Self Evaluation
The Orchestra did not have the required Section 504 self-evaluation on file. As noted in
NEA’s General Terms, “A Section 504 self-evaluation must be on file at each
organization.” A Section 504 Self-Evaluation Workbook, which can be completed online,
is available at www.arts.gov/about/504Workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal
opportunity to enter facilities and participate in programs and activities. It does not
require that every part of every facility or program be accessible. The important
considerations are that individuals with disabilities have the same opportunities in
employment, the same opportunities to enter and move around in facilities, the same
opportunities to communicate, and the same opportunities to participate in programs and
activities as non-disabled people. Further, it is important to offer employment, programs,
and services in settings that are integrated rather than to segregate individuals with
disabilities with special programs.

We recommend the Orchestra conduct a Section 504 self-evaluation to ensure
compliance with the Rehabilitation Act of 1973, as amended, and provide a copy to the
OIG. A copy of the evaluation must be on file at the organization and reviewed for each
subsequent grant award to ensure compliance. (A copy of the self-evaluation will be
provided to NEA's Office of Civil Right/EEO)

Policies and Procedures for Grants Management
The Orchestra did not maintain written policies and procedures for the management of
Federal awards. According to OMB Circular A-110, subpart C 21(b) (6), recipients of
Federal awards should have:

       Written procedures for determining the reasonableness, allocability, and
       allowability of costs in accordance with the provisions of the applicable
       Federal cost principles and the terms and conditions of the award.

The written procedures should include policies applicable to the management of Federal
awards such as reporting, allocation of costs, personnel activity reports, debarment and
suspension, and Section 504 compliance. The Orchestra could also incorporate
publications such as the NEA General Terms, NEA OIG's Financial Management Guide
for Non-profit Organizations, and applicable OMB Circulars.




                                             5
We recommend that the Orchestra develop written policies and implement procedures for
the management of Federal awards.

EXIT CONFERENCE
A preliminary exit conference was held with Orchestra officials on October 26, 2012.
Subsequent to our site visit, a telephone exit conference was held with the Orchestra
officials on March 27, 2013. The Orchestra officials concurred with our findings and
recommendations.

                          RECOMMENDATIONS
We recommend that the Orchestra:

   1. Develop written policies and implement procedures to ensure that individual
      personnel activity reports are maintained, if required, by NEA General Terms.

   2. Develop written policies and implement procedures to ensure that contractors and
      recipients are not debarred or suspended from receiving Federal funds prior to the
      payment or award of Federal funds.

   3. Conduct a Section 504 self-evaluation to ensure compliance with the
      Rehabilitation Act of 1973, as amended, and provide a copy to the OIG.

   4. Develop written policies and implement procedures for the management of
      Federal awards.




                                            6
